HHS/OIG, Audit -"Review of Head Start Compensation for the Period January 1, 2000 Through December 31, 2002 - Dane County Parent Council, Inc., Madison, Wisconsin,"(A-05-04-00026)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Head Start Compensation for the Period January 1, 2000 Through December 31, 2002 - Dane County Parent Council,
Inc., Madison, Wisconsin," (A-05-04-00026)
August 27, 2004
Complete
Text of Report is available in PDF format (50 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this audit was to determine whether the Dane County Parent Council, Inc.’s (DCPC) compensation
practices for five key executives and teachers were reasonable and consistent with Federal requirements and guidelines.  We
did not find that compensation practices were unreasonable.  The DCPC ’s compensation practices were generally in
accordance with Federal requirements and guidelines.